Supreme Court, U.S.
FILED
i

-m

No.

JUL 1 * 2021
OFFICE OF THE CLERK

In The
SUPREME COURT OF THE UNITED STATES

ROSEMARY GARITY
Petitioner
v

APWU
Respondent

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

ROSEMARY GARITY
3231 Florenza St.
Pahrump, NV 89060
geritzl@outIook.com
775-253-6127

r

PETITION FOR WRIT OF CERTIORARI

QUESTIONS PRESENTED FOR REVIEW
The questions presented show conflict with Precedent of this Court and all Circuit
Courts. The significant practical consequence is promotion of discrimination.
1. Is “But for” the standard for ADA discrimination claims as determined here?
2. Did the Ninth Circuit err, in contrast to all other Courts of Appeal and the
Supreme Court, when affirming summary judgment despite disputed material facts
and credibility issues being determined in favor of the moving party, APWU?
3. Did the Ninth Circuit err in determining union liability contrary to most Circuit
Courts and the Supreme Court?
4. Did the Ninth Circuit err in pro se consideration as to issues raised, i.e. failing to
act, technicalities and determination on the merits in conflict with other Circuits
and the Supreme Court?
5. Did the Ninth Circuit err in refusing to follow doctrines on law of the case and
issues not raised on appeal not available, removing the liability standard set forth
in the case?

LIST OF ALL PARTIES TO THE PROCEEDING
APWU National

APWU State (Local successor)

ii

TABLE OF CONTENTS
TABLE OF AUTHORITIES

lv-vm

OPINIONS BELOW.

1

JURISDICTION.

1-2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

2

2-4

REASONS FOR GRANTING THE WRIT

4-19

CONCLUSION.

20

INDEX TO APPENDICES
APPENDIX A NINTH CIRCUIT DECISION
APPENDIX B DISTRICT COURT DECISION ON SUMMARY JUDGMENT
APPENDIX C NINTH CIRCUIT REHEARING DECISION
APPENDIX D LAW OF CASE ORDER ON LIABILITY

iii

TABLE OF AUTHORITIES
Cases

14 Penn Plaza LLC v. Pyett, U.S., 129 S.Ct. 1456, 1473, 173 L.Ed.2d 398 (2009)

13

Ahmed v. Johnson, 752 F.3d 490 (1st Cir. 2014)

9

Alexander v. LOCAL 496, LABORERS 'INTERN. UNION, 177 F.3d 394 (6th Cir. 1999)15,17
Anderson v. liberty Lobby, Inc., 477 U. S. 242, 255 (1986)

8

Berger v. Iron Workers Reinforced Rodmen Local 201, 843 F.2d 1395, 1427 (D.C. Cir. 1988)9,
11,17

Bretz v. Reiman, 773 F.2d 1026, 1027 n. 1 (9th Cir. 1985) (en banc)

17

Burlington N. & Santa Fe Ry. Co., 548 U.S. 53, 126 S.Ct. 2405, 165 L.Ed.2d 345)

8

Butt v. United Brotherhood of Carpenters & Joiners of America, No. 12-1331 (3d Cir. Jan.
31, 2013)

9

Caldwell v. KHOU-TV, 850 F.3d 237 (5th Cir. 2017)
Celotex Corp. v. Catrett, 477 U.S. 317, 327 (1986)

10
8

Cerros v. Steel Technologies, Inc., 398 F.3d 944 (7th

15,17

Clem v. Lomeli, 566 F.3d 1177, 1182 (9th Cir.2009)

19

Davis v. Team Elec. Co., 520 F.3d 1080 (9th Cir. 2008)

13

Dawson v. Entek Intern., 630 F.3d 928 (9th Cir. 2011)

15

Desert Palace, Inc. v. Costa, 539 U.S. 90, 123 S. Ct. 2148, 156 L. Ed. 2d 84 (2003)

7

Dixon v. International Broth, of Police Officers, 504 F.3d 73(lst Cir. 2007)

16

Doe ex rel. Doe u. Lower Merion School Dist., 665 F.3d 524 (3d Cir. 2011)

9

El Paso Natural Gas Co. v. Neztsosie, 526 U.S. 473, 479 (1999)
Eshleman v. PATRICK INDUSTRIES, INC, 961 F.3d 242 (3d Cir. 2020)

iv

19
7

Faragher v. Boca Raton, 524 U.S. 775, 806 118 S. Ct. 2275, 141 L. Ed. 2d 662 (1998).... 14,15
Federal Express Corp. v. Holowecki, 552 U.S. 389, 393 (2008).

5

Folkerson v. Circus Circus EntersInc.,101 F.3d 754, 756 (9th Cir. 1997)

15

Fuller v. City of Oakland, 47 F.3d 1522, 1529 (9th Cir. 1995)

16

Galdamez v. Potter, 415 F.3d 1015 (9th Cir. 2005)

15

Gallagher v. San Diego Unified Port District, No. 14-56517 (9th Cir. Sept. 7, 2016)

19

Garity v APWU Ninth Circuit Court of Appeals 13-15195 828 F. 3d 848

1

Garity v APWU US District Court of Nevada 2:1 l-cv-01109-APG-CWH

1

GARITY v. APWU NATIONAL LABOR ORGANIZATION, No. 18-15633 (9th Cir. Dec. 24,
2020)

1

Genesis Healthcare Corp. v. Symczyk, 133 S.Ct. 1523,1529 (2013)

19

Gonzalez v Arizona, 677 F.3d 383, 389 n.4 (9th Cir. 2012) (en banc)

19

Goodman v. Lukens Steel Co., 482 U.S. 56, 107 S.Ct. 2617, 2625, 96 L.Ed.2d 572 (1987) ....13
Gross v. FBL Financial Services, Inc., 557 U.S. 167, 129 S. Ct. 2343, 174,175 L. Ed. 2d 119
(2009)

5

Hall v. City of Los Angeles, 697 F.3d 1059, 1067 (9th Cir. 2012)

19

Hubbell v. World Kitchen, LLC, 688 F. Supp. 2d 401 (W.D. Pa. 2010)

13

Hunt v. Cromartie, 526 U.S. 541, 549 119 S. Ct. 1545, 143 L. Ed. 2d 731 (1999)

8

IN RE Eric Watkins Litigation, No. 20-10408, Non-Argument Calendar (11th Cir. Oct. 1,
2020)

18

Jones v. Blanas, 393 F.3d 918 (9th Cir. 2004)

17

King v. Laborers Inti Union ofN. Am., 443 F.2d 273, 277-78 (6th Cir.1971)

13

Leone v. Owsley, 810F.3d 1149 (10th Cir. 2015)

11

Lewis v. Local Union No. 100, 750 F.2d 1368, 1378 (7th Cir.1984)

v

15,16,17

Marshall v. The Rawlings Co. LLC, 854 F.3d 368 (6th Cir. 2017)
McGinest v. GTE Serv. Corp., 360 F.3d 1103, 1122 (9th Cir. 2004)

10
7,10,14

Metoyer v. Chassman, 504 F.3d 919, 931 (9th Cir. 2007)

7

Musacchio v. US, 136 S. Ct. 709, 577 U.S

19

NUNIES v. HIE HOLDINGS, INC., 904 F.3d 837 (9th Cir. 2018)

10

Pepper v. United States, 562 U.S. 476, 506, 131 S.Ct.1229, 179 L.Ed.2d 196 (2011)

19

Rainey v. Town of Warren, 80 F. Supp. 2d 5 (D.R.I. 2000)

11,13

Rand v. Rowland, 154 F.3d 952, 957-58 (9th Cir. 1998)

18

Randolph v. Ind Reg'l Council of Carpenters, 453 F.3d 413 (7th Cir. 2006)

10

Reeves v. Sanderson Plumbing Products, Inc. 530 US 133, 120 S. Ct. 2097, 147 L. Ed. 2d
105 (2000)
Reynaga v. Roseburg Forest Products, 847 F.3d 678 (9th Cir. 2017)

8

i

7

i

Rowlands v. UNITED PARCEL SERVICE-FT. WAYNE, 901 F.3d 792 (7th Cir. 2018)....... 10
S. Atl. Ltd. P’ship of Tenn, LP v. Riese, 356 F.3d 576, 584 (4th Cir. 2004)

18

Sause v. Bauer, 138 S. Ct. 2561, 585 U.S., 201 L. Ed. 2d 982 (2018)

18

Schiano v. Quality Payroll Sys., Inc., 445F.3d 597, 603 (2d Cir. 2006)

7

:
i

i

Siring v. STATE BD. OF HIGHER EDUC. EXREL. EOU, 977 F. Supp. 2d 1058 (D. Or.
2013)

5

Slater v. Susquehanna County, 613 F.Supp.2d 653, 664 (M.D.Pa.2009)

13

Smothers v. Solvay Chemicals, Inc., 740 F.3d 530 (10th Cir. 2014)

11

Stacy v. Colvin, 825 F.3d 563 (9th Cir. 2016)

19

t

i
i

i

Student Doe 1 v. Lower Merion School District, No. 10-3824 (3d Cir. Dec. 14, 2011)

9

T.B. v. San Diego Unified Sch. Dist., 806 F.3d 451, 472 (9th Cir. 2015).

5

Tamosaitis V. Urs Inc., 781 F.3d 468 (9th Cir. 2014)

vi

15

Tex. Dept, of Cmty. Affairs v. Burdine, 450 U.S. at 256

7

Tiffany and Company v. Costco Wholesale Corp.y 971 F.3d 74 (2d Cir. 2020)

9

Tolan v. Cotton, 134 S. Ct. 1861, 572 U.S. 650, 188 L. Ed. 2d 895 (2014).

8

Tramp u. Associated Underwriters, Inc., 768 F.3d 793 (8th Cir. 2014)

10

Triestman v. Fed. Bureau of Prisons, 470 F.3d 471, 474 (2d Cir. 2006)

18

United States Nat. Bank of Ore. v. Independent Ins. Agents of America, Inc., 508 U.S. 439,
455, 113 S.Ct. 2173, 124 L.Ed.2d 402 (1993)

5

United States v. Bell, 988 F.2d 247, 250 (1st Cir. 1993)

19

United States v. Gamboa-Cardenas, 508 F.3d 491, 502 (9th Cir.2007)

19

United States v. Heirs ofBoisdore, 8 How. 113, 122, 12 L.Ed. 1009 (1849))

5

Univ. of Tex. Southwestern Med. v. Nassar, 133 S. Ct. 2517, 570 U.S. 338, 186 L. Ed. 2d 503
(2013)

5,6

WHITES v. City of Newport News, No. 19-1780 (4th Cir. Apr. 30, 2021)
Woods v. Graphic Commc'ns, 925 F.2d 1195, 1199 (9th Cir. 1991)

9
13

Statutes
28 U.S.C. § 1254(1)

2

28 U.S.C. § 1291

2

American with Disabilities Act, as amended P.L. 110-325

2

Other Authorities
76 Wash. & Lee L. Rev. 1567(2019) (Un)Conscious Judging
ADA Technical Assistance manual

11
2

House Report on the ADA Amendments Act of 2008, H.R. Rep. 110-730(1)
Restatement 2d, Agency § 94A

2,4

7,15,16,17

vii

Rules
Fed. R. Civ. P. 8(b)(5)

2

FRCP Rule 56(c)

8

Constitutional Provisions
(Amendment VII) to the United States Constitution: Right to jury trial........ 2

viii

I

’

v

IfJrSl ’WI|

rv J . **-vM V fiff’l >H)iM

I

t,

- t':r niiii

!! ' *;is!-4<bfi jm ‘

i

SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment.
LIST OF ALL PROCEEDINGS IN TRIAL AND APPELLATE COURTS
Garity v APWU US District Court of Nevada 2:ll-cv-01109-APG-CWH
A. Order denying dismissal and setting law of the case. (ECF 76) 06/18/2012 at
Appendix D
B. Dismissal (ECF 126) 01/14/2013
C. Grant of Summary judgment (ECF 209 03/14/2018, ECF 210 03/15/2018) at
Appendix B
Garity v APWU Ninth Circuit Court of Appeals
A. Garity v APWU Ninth Circuit Court of Appeals 13-15195 828 F. 3d 848
Remand 07/05/2016
B. GARITY v. APWU NATIONAL LABOR ORGANIZATION, No. 18-15633 (9th Cir.
Dec. 24, 2020). Unpublished
1. Order affirming 12/24/2020 at Appendix A
2. Deny rehearing 02/24/2021 at Appendix C
BASIS OF JURISDICTION
This Court has jurisdiction by the timely filing of this Writ within the prescribed
150 days (Supreme Court Order) from the order denying rehearing.
Date of Judgment: December 24, 2020.
Order denying Rehearing: February 24, 2021.

1

The statutory provision that confers U.S. Supreme Court Jurisdiction is 28 U.S.C. §
1254(1)
Basis for jurisdiction in Federal District Court is pursuant to ADA of 1973 as
amended (P.L. 110-325). The basis for Federal Jurisdiction in the Ninth Circuit was
as of right from the dismissal from the District Court as 28 U.S.C. § 1291.
CONSTITUTIONAL PROVISIONS, STATUTES AND REGULATIONS
Amendment VII to the United States Constitution: Right to jury trial
American with Disabilities Act, as amended P.L. 110-325
ADA Technical Assistance manual Actions which Constitute Discrimination
2. Limiting, segregating, or classifying a job applicant or employee in a way
that adversely affects employment opportunities for the applicant or employee
because of his or her disability.
House Report on the ADA Amendments Act of 2008, H.R. Rep. 110-730(1)
"Discrimination on the Basis of Disability" (2008). Congressional notes on ADA
Fed. R. Civ. P. 8(b)(5) When a defendant is responding to an allegation in a
complaint, response must fall within one of three categories: admit, deny, or say
that the defendant “lacks knowledge or information sufficient to form a belief about
the truth of an allegation”)
CONCISE STATEMENT OF THE CASE WITH MATERIAL FACTS
APWU refused to file any grievance related to the found disability discrimination by
USPS relating to denial of work, severely cut hours and multiple unfounded
suspensions and National refused to process those grievances already sent to

2

National. National was notified of the discrimination by NLRB-January onward,
Union discrimination charges-February to May, EEOC-March-May and over 60
notifications by petitioner and others. The local President then wrote a statement,
in her official position, supporting petitioner’s found wrongful termination and
National was notified of the action. National Business Agent Scoggins sided with
management in denying Weingarten rights to petitioner. APWU was ordered
forward in this suit on discrimination and retaliation. This included both National
and Local. Local was later erroneously dismissed and Garity appealed to the Ninth
Circuit. A pro bono attorney was appointed and did not include the local dismissal
in the replacement appeal. APWU National did not cross appeal the Court Order
setting out National liability standard and in fact argued the Local case on appeal.
The case was remanded. Subsequently National was granted summary judgment
while material facts were disputed and credibility issues abounded. National APWU
took over Petitioner’s grievances particularly those on discrimination and
retaliation and did not process them. National regularly advised the local on
Petitioner’s grievances and was even involved in determining a 6 day work week
while she had a 5 day work restriction. National was notified of the discrimination
and was, according to the APWU Constitution, to hear the discrimination charges
but never did. National was notified in detail of the discrimination of the Local and
National Agents on July 6, 2011 by this lawsuit. No action was taken to address the
discrimination and local union officials then signed a letter calling petitioner
mentally unstable, accusing of inclination to murder and requesting her removal.

3

Petitioner was constructively discharged due to the detrimental effect on her heart
condition, cancer, anxiety and depression. Union liability was determined contrary
to Circuit Courts and the Supreme Court. Law of the case, retaliation and
application of pro se and the merits were ignored. The District and Ninth Circuit
Courts misstated relevant facts that would alone alter the decision, including that
National Business Agents are not National when the record evidence proves they
are and the issue was not even raised. Decision is against this Court and all
Appellate Court Law on summary judgment and liability, contrary to the factual
evidence, and involved technicalities used against a pro se preventing a decision on
the merits by a jury of Petitioner’s peers.
REASONS FOR GRANTING PETITION/CONTENTIONS IN SUPPORT
The determination is contrary to the facts, evidence, law, other Circuit Court and
Supreme Court decisions and the Petition is the only avenue to justice.
Question 1: “But for” is not determined as ADA standard. The arguments in the
cases below show that motivating factor should be the standard.
ADA was amended by Congress in 2008 with the specific purpose of
broadening the scope...after the Supreme Court had interpreted it narrowly.
ADA Amendments Act of 2008, Pub.L. No. 110- 325, § 2(a), 122 Stat. 3553.
This amendment changed the causation language for ADA discrimination
from "because of* to "on the basis of." id. at § 5(a), therefore, making the ADA
discrimination claim less similar to a Title VII retaliation...in the House
Report on the ADA Amendments Act of 2008, a section is dedicated to
explaining the new "on the basis of' language. H.R. Rep. 110-730(1)
"Discrimination on the Basis of Disability" (2008). This section describes
Congress's purpose for the changed language, particularly noting that
"indirect evidence" and "mixed motive" cases should be permitted under the
ADA discrimination causes of action. Id. The House Report also notes that
Section 102 of the ADA is meant to "mirror the structure of
nondiscrimination protection in Title VII of the Civil Rights Act." Id.

4

Examining the statutory text and legislative history, as the Supreme Court
did in Nassar, the ADA discrimination provision is substantially more similar
to Title VII's status-based discrimination provision than to Title VU's
retaliation provision. Siring v. STATE BD. OF HIGHER EDUC. EXREL
EOU, 977 F. Supp. 2d 1058 (D. Or. 2013).
It is necessary and required that an interpretation of a phrase of uncertain
reach is not confined to a single sentence when the text of the whole statute
gives instruction as to its meaning. United States Nat. Bank of Ore, v.
Independent Ins. Aeents of America. Inc.. 508 U.S. 439. 455. 113 S.Ct. 2173.
124 L.Ed.2d 402 (1993) ("'[I]n expounding a statute, we must not be guided
by a single sentence or member of a sentence, but look to the provisions of the
whole law, and to its object and policy"’ (quoting United States v. Heirs of
Boisdore. 8 How. 113. 122. 12 L.Ed. 1009 (1849111 See also Gross v. FBL
Financial Services, Inc., 557 U.S. 167, 129 S. Ct. 2343, 174,175 L. Ed. 2d 119
(2009); Federal Express Corp. v. Holowecki, 552 U.S. 389, 393 (2008).
Gross instructs statutory interpretation is an individualized inquiry. ADA
incorporates the powers, remedies, and procedures of Title VII, see 42 U.S.C. §
12117(a), and thus the motivating factor language which the ADEA does not.
Disability is a status based claim like race and gender as discussed in Univ. of Tex.
Southwestern Med. u. Nassar, 133 S. Ct. 2517, 570 U.S. 338, 186 L. Ed. 2d 503
(2013). ADA plaintiffs are entitled to relief from status based discrimination on a
showing of motivating factor causation based on all the above.
To state a prima facie case of retaliation under the ADA and section 504, an
individual must show that (1) she engaged in a protected activity, (2) she suffered
an adverse action, and (3) there was a causal link between the two. T.B. v. San
Diego Unified Sch. Dist., 806 F.3d 451, 472 (9th Cir. 2015) The evidence clearly
showed the protected activity of union discrimination charges, EEOC discrimination
charges, NLRB discrimination charges and a detailed outline of discrimination on
July 6, 2011.

5

The adverse actions of refusing to hear the union charges, refusing to process
grievances after taking them over, National supporting management on lack of
investigation regarding Weingarten rights resulting in petitioners firing and failing
to act to remedy were all evidenced in direct temporal proximity to the protected
activity. (Suspending or limiting access to an internal grievance procedure also
constitutes an “adverse action.”) EEOC DIRECTIVES TRANSMITTAL Number
915.003 Date 5/20/98)
The union working, in unison with management, to fire petitioner and stalling and
refusing to process her grievances are adverse actions likely to deter. The decision
stated petitioner did not state the actions would deter others from filing when it
was stated and shown in the Petition for Rehearing.
The Circuit Courts are misapplying Nassar as the Congressional intent is clearly
stated in the Congressional notes.
The facts and evidence nonetheless did show the “but for” standard.
Question 2: Summary judgment was contrary to all case law. The disputed material
fact of APWU National involvement in the local based on handling Garity’s
discrimination grievances, derogatory disability emails and massive written
notification of the discrimination was not left for trial. The record and evidence
verify the National involvement and knowledge of the discrimination and in detail
on July 6, 2011 with the filing of this lawsuit. No action was taken to stop the
discrimination. Credibility determination of the National Business Agents and local
union officers was determined against Garity while the evidence and depositions

6

verify they were not credible. Restatement 2d of Agency declares that ”[w]hether or
not [an inference of ratification] is to be drawn is a question for the jury. Further,
APWU classifies the disabled as “limited” and “rehab” contrary to law and part of
this case. Ruling required direct evidence of discrimination while law is contrary. A
plaintiff may prove a defendant's motive thru circumstantial evidence alone.
McGinest v. GTE Serv. Corp., 360 F.3d 1103, 1122 (9th Cir. 2004); Metoyer v.
Chassman, 504 F.3d 919, 931 (9th Cir. 2007); Reynaga v. Roseburg Forest Products,
847 F.3d 678 (9th Cir. 2017). Tex. Dept, of Cmty. Affairs v. Burdine, 450 U.S. at 256;
Desert Palace, Inc. v. Costa, 539 U.S. 90, 123 S. Ct. 2148, 156 L. Ed. 2d 84 (2003).
Rather Garity showed the inference based on the totality of the evidence.
Schiano v. Quality Payroll Sys., Inc., 445F.3d 597, 603 (2d Cir. 2006) ("an extra
measure of caution is merited" when considering a motion for summary judgment
"because direct evidence of discriminatory intent is rare and such intent often must
be inferred from circumstantial evidence found in affidavits and depositions.") The
regarded as claim was not addressed despite the National email that Garity was
severely disabled and National stating could not return to work. (See Eshleman v.
PATRICK INDUSTRIES, INC., 961 F.3d 242 (3d Cir. 2020). The totality of the
evidence was not viewed in the light most favorable to Garity. The National
Business Agents were stated as not National while the record evidence shows they
are National. Representation was misstated as evidence proved petitioner was
without representation by APWU for several months. Multiple law review journals,
2:ll-cv-01109 ECF 197-75, verify that summary judgment is prohibiting
meritorious cases to the benefit of those committing the actions. This affects all
7

discrimination claims and encourages discrimination without accountability. This is
contrary to congressional intent and allows circuit courts to issue decisions contrary
to law regularly without any oversight or remedy for discrimination. This
Summary Judgment ruling is contrary to the following: Hunt v. Cromartie, 526 U.S.
541, 549 119 S. Ct. 1545, 143 L. Ed. 2d 731 (1999) (genuine issue of material fact);
Tolan v. Cotton, 134 S. Ct. 1861, 572 U.S. 650, 188 L. Ed. 2d 895 (2014) (Fifth
Circuit failed to adhere to the axiom that in ruling on a motion for summary
judgment, "[t]he evidence of the nonmovant is to be believed, and all justifiable
inferences are to be drawn in his favor."); Anderson v. Liberty Lobby. Inc.. 477 U. S.
242. 255 (1986) ("Credibility determinations, the weighing of the evidence, and the
drawing of legitimate inferences from the facts are jury functions, not those of a
judge ... .The evidence of the nonmovant is to be believed, and all justifiable
inferences are to be drawn in his favor"); Reeves v. Sanderson Plumbing Products,
Inc. 530 US 133, 120 S. Ct. 2097, 147 L. Ed. 2d 105 (2000) (general principle of
evidence law that the factfinder is entitled to consider a party’s dishonesty about a
material fact as "affirmative evidence of guilt); Celotex Corp. v. Catrett, 477 U.S.
317, 327 (1986) (FRCP Rule 56(c), summary judgment is proper "if the pleadings,
depositions, answers to interrogatories, and admissions on file, together with the
affidavits, if any, show that there is no genuine issue as to any material fact and
that the moving party is entitled to a judgment as a matter of law."); Burlington N.
& Santa Fe Rv. Co.. 548 U.S. 53. 126 S.Ct. 2405. 165 L.Ed.2d 3451 (”[I]t needs no
argument to show that fear of economic retaliation might often operate to induce

8

aggrieved employees quietly to accept substandard conditions"); Berger v. Iron
Workers Reinforced Rodmen Local 201, 843 F.2d 1395, 1427 (D.C. Cir. 1988) (A
meticulous review of the District Court's conclusions uncovered a number of clearly
erroneous factual findings and several errors of law); Ahmed v. Johnson, 752 F.3d
490 (1st Cir. 2014) (To determine whether a trial-worthy issue exists, we look to all
of the record materials on file, including the pleadings, depositions, and affidavits.
Fed.R.Civ.P. 56(c)(1)(A)... We may neither evaluate the credibility of witnesses nor
weigh the evidence); Tiffany and Company v. Costco Wholesale Corp., 971 F.3d 74
(2d Cir. 2020) (We review the district court's rulings on summary judgment de
novo, resolving all ambiguities and drawing all permissible inferences in favor of
the nonmoving party); Student Doe 1 v. Lower Merion School District, No. 10-3824
(3d Cir. Dec. 14, 2011) and Doe ex rel Doe v. Lower Merion School Dist., 665 F.3d
524 (3d Cir. 2011) (Intentional discrimination can be shown when: (1) a law or
policy explicitly classifies citizens on the basis of race (as APWU National does in
classifying disabled as “limited” and “rehab”): Butt v. United Brotherhood of
Carpenters & Joiners of America, No. 12-1331 (3d Cir. Jan. 31, 2013) (the record
must be viewed in the light most favorable to the non-moving party... Remand is
also appropriate to address the issue of...retaliation... This standard—pertaining to
direct employers—failed to account for actions that a labor organization could take
—to dissuade employees from complaining or assisting in complaints about
discrimination); WIRTES v. City of Newport News, No. 19-1780 (4th Cir. Apr. 30,
2021) (court should grant summary judgment only if, taking the facts in the best

9

light for the nonmoving party, no material facts are disputed and the moving party
is entitled to judgment as a matter of law); Caldwell v. KHOU-TV, 850 F.3d 237
(5th Cir. 2017) (In reviewing a motion for summary judgment, factual inferences are
viewed in the light most favorable to the nonmoving party); Marshall v. The
Rawlings Co. LLC, 854 F.3d 368 (6th Cir. 2017) (At the summary judgment stage,
the court determines whether there are genuine disputes of material fact that
should go to a jury; it does not find facts... There is a genuine dispute of material
fact if "there is sufficient evidence favoring the nonmoving party for a jury to return
a verdict for that party); Rowlands v. UNITED PARCEL SERVICE-FT. WAYNE,
901 F.3d 792 (7th Cir. 2018) ("a court may not make credibility determinations,
weigh the evidence, or decide which inferences to draw from the facts" on summary
judgment, and must "avoidQ the temptation to decide which party's version of the
facts is more likely true."); Randolph v. Ind Reg’l Council of Carpenters, 453 F.3d
413 (7th Cir. 2006) (Plaintiffs statements must be believed at summary judgment
...Oral testimony if admissible will normally suffice to establish a genuine issue of
material fact,); Tramp u. Associated Underwriters, Inc., 768 F.3d 793 (8th Cir. 2014)
(All of these facts, construed in Tramp's favor, "assume greater probative value on a
motion for summary judgment); NUNIES v. HIE HOLDINGS, INC., 904 F.3d 837
(9th Cir. 2018) (we conclude that Nunies established a genuine issue of material
fact as to whether HIE regarded him as having a disability); McGinest v. GTE Serv,
Corn.. 360 F.3d 1103. 1112 (9th Cir.2004) ( "In evaluating motions for summary
judgment in the context of employment discrimination, we have emphasized the

10

importance of zealously guarding an employee's right to a full trial, since
discrimination claims are frequently difficult to prove without a full airing of the
evidence and an opportunity to evaluate the credibility of the witnesses."); Leone v.
Owsley, 810 F.3d 1149 (10th Cir. 2015) ("Summary judgment in favor of the party
with the burden of persuasion ... is inappropriate when the evidence is susceptible
of different interpretations or inferences by the trier of fact."); Smothers v. Solvay
Chemicals, Inc., 740 F.3d 530 (10th Cir. 2014) ("[A]lthough the court should review
the record as a whole, it must disregard all evidence favorable to the moving party
that the jury is not required to believe."... When evaluating an employer's motives
or reasons, "motivation is itself a factual question."); Elizabeth Thornburg.
(TJn)Conscious Judging. 76 Wash. & Lee L. Rev. 1567(20191. https://scholarlv
commons.law.wlu.edu/wlulr/vol76/iss4/6 (Fact inferences made by the trial judge
are the lynchpin of civil litigation. If inferences were a matter of universally held
logical deductions, this would not be troubling. Inferences, however, are deeply
contestable conclusions that vary from judge to judge. Non-conscious psychological
phenomena can lead to flawed reasoning, implicit bias, and culturally influenced
perceptions. Inferences differ significantly, and they matter. Given the
homogeneous makeup of the judiciary, this is a significant concern);
This is because labor organizations stand as a firewall, as protection for its
members, in the face of employer discrimination. Labor organizations
therefore occupy a critical battledine position in fighting discrimination and
harassment....tacitly encourage...This serves as a foundation for a finding of
vicarious liability on the part of the International Union. See Berger, 843
F.2d at 1427; Abreen, 709 F.2d at 757. Consequently, there is a genuine
dispute over material facts regarding this issue that will have to be resolved
by the jury. Rainey v. Town of Warren, 80 F. Supp. 2d 5 (D.R.I. 2000).

11

All the above case law is inapposite to the determination here.
The “but for” standard is met as complete inaction when notified of discrimination
but for the protected activity, a reasonable jury can determine that some action to
end the discrimination would have occurred. Although “but for” does not require
retaliation to be the only reason for the actions/inaction it would standing alone
have created the actions/inactions as outlined. This is a jury determination
and clearly a material fact in dispute. But for the protected activity the APWU,
Scoggins and Poulos would not have supported Garity’s suspension and removal.
(Both derogatively related Garity’s EEO activity 2:ll-cv-01109 ECF 197 EX 54 p.
63, 103) But for the EEO activity APWU would not have fought to keep Garity’s
arbitration loss. The determination of APWU liability, ratification and retaliation
were disputed material facts that were determined by the Judges. Credibility was
determined contrary to the record evidence. The declaration of Petitioner was
completely ignored. False facts were cited that were not put forth by the moving
party regarding the National Business Agents not being National and then this
false fact was used to affirm summary judgment. This elimination of pro se
discrimination plaintiffs at Summary judgment affects each discrimination claim
and the ability to acquire representation. This determination is "so far departed
from the accepted and usual course of judicial proceedings, or sanctioned such a
departure by a lower court, as to call for an exercise of this Court's supervisory
power."
Question 3: The liability standard of Unions is in disarray among the various

12

Circuits, as outlined below, and this determination is contrary to ADA and liability
standards. The ADA does not set different rules for discriminatory union actions.
Consequently,...need only establish that ...engaged in a single act of
discrimination to hold the Union liable...King v. Laborers Int'l Union ofN.
Am., 443 F.2d 273, 277-78 (6th Cir.1971)...claims...based upon the actions or
inactions of the Union itself,... not... underlying discriminatory acts...by
World Kitchen. Compl. f 12(g). ...claim may be raised when there is a single
act of discrimination, a deliberate choice...not to process o grievance may give
rise to a claim against it...where...employee affirmatively requests union
intervention to remedy an act of discrimination committed by his or her
employer, a deliberate refusal or failure to act on that request may subject
the union to liability under Title VII. Slater v. Susquehanna County, 613
F.Supp.2d 653, 664 (M.D.Pa.2009) See also 14 Penn Plaza LLC v. Pyett, U.S.,
129 S.Ct. 1456, 1473, 173 L.Ed.2d 398 (2009).
In Rainey,...union's awareness of actual discrimination...inference that a
decision declining to grieve...was itself attributable to a discriminatory
motive. Rainey, 80 F.Supp.2d at 18 Hubbell v. World Kitchen, LLC, 688 F.
Supp. 2d 401 (W.D. Pa. 2010),
Goodman v. Lukens Steel Co., 482 U.S. 56, 107 S.Ct. 2617, 2625, 96 L.Ed.2d 572
(1987) (refusing to file and process grievances and liability); Woods v. Graphic
Commc'ns, 925 F.2d 1195, 1199 (9th Cir. 1991) (A plaintiff alleging employment
discrimination "need produce very little evidence in order to overcome an employer's
motion for summary judgment. This is because the ultimate question is one that can
only be resolved through a searching inquiry — one that is most appropriately
conducted by a factfinder, upon a full record.") See also Davis v. Team Elec. Co., 520
F.3d 1080 (9th Cir. 2008) (Same standard as USPS).
2:ll-cv-01109 ECF 176 TR 163:17-20 Scoggins could have involvement in local bids.
169:8-9 A. Scoggins was involved in almost all your Step 3s. 175:1-6 don't believe all
NLRB charges were handled locally. 179:2-17 NLRB charges against APWU and

13

threats of suing which the retired national business agent who is a member of the
local is handling with the support of national APWU...211:22-25 document does
show that she's (Poulos) in communication with the national attorney, Mr. Anton
Hajjar; (Scoggins is National Business Agent) Id.ECF 182 ex 1TR 251:9-252:17 “So
she was in constant contact with the business agents on all the issues, so that they
were just completely and totally involved in the local. National even admits
an investigation should have been done by ordering one that never occurred. (ECF
197 EX 88) (Laughon is relevant in that Awareness of the actions is supportive of
liability) NBA’s are National Officers (2:ll-cv-01109 ECF 197 (EX 62 p.18).
The instant case involves a National Union that negotiates the collective bargaining
agreement determining the hours, wages, conditions of employment, without local
input, handles the local’s grievances, determines membership of the local and hears
discrimination charges against the local. This is different than an International
Union that has no such involvement.
This result leaves the disabled without a way to quickly report and remedy
discrimination, particularly here, where National accepted responsibility for
hearing union discrimination in their constitution. This is in conflict with “prompt
investigation of the alleged misconduct as a hallmark of reasonable corrective
action”. In McGinest, for example, the Ninth Circuit found a disputed issue of
material fact about the adequacy of GTE's remedial measures...no actions
taken...to ensure that this recurrent problem would cease, and in fact it did not
cease."...This objection to the employer's failure to engage in effective remedial
efforts is consistent with the Supreme Court's insistence in Faragher that we
14

"recognize the employer's affirmative obligation to prevent violations and give credit
here to employers who make reasonable efforts to discharge their duty."
Faragher v. Boca Raton, 524 U.S. 775, 806 118 S. Ct. 2275, 141 L. Ed. 2d 662
(1998). Cerros v. Steel Technologies, Inc., 398 F.3d 944 (7th Cir. 2005) (vicarious
liability and prompt remedial action); Folkerson v. Circus Circus Enters., Inc., 107
F.3d 754, 756 (9th Cir. 1997) (Moreover, an employer may be liable for the
retaliatory conduct of another entity "where the employer either ratifies or
acquiesces" in the retaliation "by not taking immediate and/or corrective
actions when it knew or should have known of the conduct."); Tamosaitis V. Urs
Inc., 781 F.3d 468 (9th Cir. 2014) (Same), Dawson v. Entek Intern., 630 F.3d 928
(9th Cir. 2011) (Same); Galdamez v. Potter, 415 F.3d 1015 (9th Cir. 2005) (Same).
LIUNA breached its affirmative duty to oppose Local 496's discriminatory
practices by neglecting to remedy the alleged discrimination when it learned
of the plaintiffs' claims.... In this case, the district court correctly found that
LIUNA is liable both vicariously and directly. Alexander u. LOCAL 496,
LABORERS 'INTERN. UNION, 177 F.3d 394 (6th Cir. 1999).
Claims here were reported multiple times starting in December 2010 and filed in
Court July 6, 2011 and amended without any attempt to investigate and remedy.
USPS was found to have discriminated on the basis of disability verifying the
discrimination was occurring.
We find the Lewis court's reasoning persuasive. The commentary to section
94 of the Restatement 2nd of Agency states that "silence under such
circumstances that...one would naturally be expected to speak if he did not
consent, is evidence from which assent can be inferred." "In the agency field,"
the commentary explains, "failure to object to the doing of an act has
frequently been held to create authority to do future acts." Appendix,
Restatement 2d, Agency § 94A jury could reasonably find that the failure to
object to these repeated abuses or to intervene to stop threatened reprisals of

15

which the International was aware in effect constituted support or
authorization...to continue his discriminatory misconduct. Thus, the
Restatement 2d of Agency declares that "[wjhether or not [an inference of
ratification] is to be drawn is a question for the jury, unless the case is so
clear that reasonable men could come to but one conclusion." Restatement 2d
of Agency, § 94. Ultimately, the question of ...reasonableness in failing to
intervene...should be considered by a jury. Lewis v. Local Union No. 100, 750
F.2d 1368, 1378 (7th Cir.1984); Fuller v. City of Oakland, 47 F.3d 1522, 1529
(9th Cir.1995)
Inaction regarding the at least 60 notifications to APWU was in direct relation to
the protected activity. Inaction constitutes ratification. Ratification establishes
vicarious liability. The above cases show the conflict in the Circuits on liability. The
APWU was also aware, on their website, of the pattern and practice of disability
discrimination/abusive treatment of USPS evidenced by the ongoing findings of
USPS discrimination liability against the disabled. The APWU did not file one
grievance related to the ongoing discrimination. (2:ll-cv-01109 ECF 197 EX 50; EX
51, EX 3 #62; Id. ECF 176 TR 215:24 to 216:12, 220:24 to 221:7)
2:ll-cv-01109 ECF 197 p. 25-30 outlined all the notification to National of the
discrimination and retaliation.
Further the National APWU fought to uphold Garity’s loss at arbitration, while her
sole representative, because of protected activity. (2:ll-cv-01109 EX 58)
The below cases are contrary to this determination:
Dixon v. International Broth, of Police Officers, 504 F.3d 73(lst Cir. 2007) (Forbids
any labor organization to discriminate against any member thereof...
discrimination within the union, by union members (concluding “effectively ratified
the harassment" when it knew of the discrimination but took no action against the

16

offending...representatives); Alexander v. Local 496, Laborers'intem. Union, 177
F.3d 394 (6th Cir. 1999) (affirmative duty to oppose local discrimination and
remedy when learned of the claims. Found vicariously and directly liable); Cerros v.
Steel Technologies, Inc., 398 F.3d 944 (7th Cir. 2005) (Prompt investigation is
hallmark of reasonable corrective action); Lewis v. Local Union No. 100, 750 F.2d
1368, 1378 (7th Cir.1984) (Citing section 94 of the Restatement 2d of Agency
inference of ratification on lack of intervention is a jury question); Berger v. Iron
Workers Reinforced Rodmen Local 201, 843 F.2d 1395 (D.C. Cir. 1988) (To the
extent...constitution deal specifically with discriminatory practice...may be
sufficient in themselves to raise an inference that the local is its agent).
This constitutes a division between the Ninth Circuit and the above Circuits and
Supreme Court. This determination on liability allows National Unions involved in
local grievances and the contract to avoid any liability for their actions affecting all
union members throughout the country.
Question4: Pro se consideration (Jones v. Blanas, 393 F.3d 918 (9th Cir. 2004) and
determination on the merits was not applied. ”[W]e have an obligation where the
petitioner is pro se, particularly in civil rights cases, to construe the pleadings
liberally and to afford the petitioner the benefit of any doubt.” Bretz v. Kelman. 773
F.2d 1026.1027 n. 1 (9th Cir. 19851 (en bancl.Garitv raised that APWU failed to act
when notified discrimination was occurring but this was not even considered under
liability which would clearly, based on the facts, incur liability. This is in conflict
with the following Circuit Court and Supreme Court Decisions: Pro se litigants are

17

afforded protection from procedural or technical injustice. See Rand v. Rowland,
154 F.3d 952, 957-58 (9th Cir. 1998); Sause v. Bauer, 138 S. Ct. 2561, 585 U.S., 201
L. Ed. 2d 982 (2018); Triestman v. Fed. Bureau of Prisons, 470 F.3d 471, 474 (2d
Cir. 2006) (“It is well established that the submissions of a pro se litigant must be
construed liberally and interpreted to raise the strongest arguments that they
suggest.” (The Opening and Reply briefs are pro se and are simply supplemented);
IN RE Eric Watkins Litigation, No. 20-10408, Non-Argument Calendar (11th Cir.
Oct. 1, 2020) (liberally construe pro se filings to correspond between substance of
claim...underlying legal basis) This treatment of pro se discrimination plaintiffs
prevents Congressional intent of exposing and remedying discrimination. This case
was determined on technicalities and contrary to law against a pro se.
Question 5: The law of the case was not followed as the standard of APWU National
liability was set forth in 211-cv-01109 ECF 76. The outlined standard was met but
was changed by the decision. Id. 2:ll-cv-01109 ECF 197 42:18 to 47:19. The liability
of National was for a jury of peers to determine not Judges. S. Ail. Ltd. P'ship of
Tenn, LPv. Riese, 356 F.3d 576, 584 (4th Cir. 2004) ("the mandate rule forecloses
litigation of issues decided by the district court but foregone on appeal or otherwise
waived") APWU did not appeal the Order ECF 76 on liability standard and did not
raise that it was not liable. APWU was not held to the standard of the Answer must
admit, deny or state cannot determine and if not the allegations are admitted.
Garity was held to issues not raised in first appeal. Although Garity’s Ninth Circuit
informal brief cited APWU local should not have been dismissed, the Court
appointed attorney did not include in the replacement brief. APWU did not argue on
18

first appeal that they were not liable for the actions taken and even supported the
Local’s actions on appeal. They then raised the issue on the second appeal. This is
in conflict with the following decisions: United States v. Bell, 988 F.2d 247, 250 (1st
Cir. 1993) ("The black letter rule...legal decision made at one stage of ...case,
unchallenged in a subsequent appeal...becomes the law of the case for future stages
of the same litigation... deemed to have forfeited any right to challenge...);
Generally, an appellee waives any argument it fails to raise in its answering
brief. See Clem v. Lomeli, 566 F.3d 1177,1182 (9th Cir.2009).... See United States
v. Gamboa-Cardenas, 508 F.3d 491, 502 (9th Cir.2007) (where appellees fail to raise
an argument in their answering brief, "they have waived it") (citing United States v.
Nunez, 223 F.3d 956, 958-59 (9th Cir.2000)).
Contrary case law on “law of the case” includes:
Genesis Healthcare Corp. v. Symczyk, 133 S.Ct. 1523, 1529 (2013); El Paso
Natural Gas Co. v. Neztsosie, 526 U.S. 473, 479 (1999); Gonzalez v Arizona,
677 F.3d 383, 389 n.4 (9th Cir. 2012) (en banc); Gallagher v. San Diego
Unified Port District, No. 14-56517 (9th Cir. Sept. 7, 2016); Hall v. City of Los
Angeles, 697 F.3d 1059, 1067 (9th Cir. 2012); Stacy v. Colvin, 825 F.3d 563
(9th Cir. 2016); Pepper v. United States, 562 U.S. 476, 506, 131 S.Ct. 1229,
179 L.Ed.2d 196 (2011); Musacchio v. US, 136 S. Ct. 709, 577 U.S., 193 L. Ed.
2d 639(2016)
What is missing here is that the necessary proof for vicariously liability was
already determined by Court Order in this case and APWU did not appeal. Each of
the questions is clearly outlined in Case: 18-15633 DktEntry: 68. This verifies the
rulings are contrary to established law and justice not only for Petitioner but for all
discrimination and pro se plaintiffs.

19

CONCLUSION
Based on the rulings contrary to law on summary judgment, law of the case, issues
not raised on first appeal, incorrect facts, liability standards, “but for” and pro se
treatment to allow determination on the merits, the Petition for Writ of Certiorari
should be granted. This case is the perfect example of the treatment of pro se civil
rights plaintiffs trying to stand against discrimination. Petitioner asks that the case
be remanded for a full fair trial on the merits by a jury of her peers.
Respectfully submitted this 14th day of July, 2021,
s/Rosemary Garitv
Rosemary Garity

20

